CERTIFICATE OF COMPLIANCE

Thereby certify, pursuant to Supreme Court Rule 33.1 (h) that the accompanying brief
complies with the word-count limitation set forth in Rule 33.1. According to the word count tool
in the WordPerfect X8 program the brief contains 3,201 words.

For the Vermont Association of Criminal Defense
Attorneys,

    

ODL

a S. O'Hara, Esq.

ont Defender General’s Office
6 Baldwin Street, 4" Floor
Montpelier, VT 05633

AS Aus Kb 209
Date
